No.

IN THE

SUPREME COURT OF THE UNITED STATES
CARLOS RODRIGUEZ FERNANDEZ,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit

CERTIFICATE OF SERVICE

I HEREBY CERTIFY, pursuant to Supreme Court Rule 29.5(b) and this Court's order
(Apr. 15, 2020), that on 12th day of March, 2021:
one original and ten paper copies of the Petition for Writ of Certiorari and one
original and ten paper copies of the Motion for Leave to Proceed In Forma Pauperis were sent by
Federal Express to the Clerk, United States Supreme Court, One First Street, N.E., Washington,
D.C. 20543; and
electronic copies of the Petition for a Writ of Certiorari and the Motion for Leave to
Proceed In Forma Pauperis were provided by electronic service to the Solicitor General at
SupremeCtBriefs@USDOJ.gov.

RECEIVED
MAR 16 2021°
O THE CLERK
SUPREMECOURT, U.S.

All parties required to be served have been served.
Donna Lee Elm
/s/ Donna Lee Elm
Donna Lee Elm
Law Practice of Donna Elm
1465 West Wagon Wheel Road
Cottonwood, Arizona 86326
602-299-7022
donnaelm1014@gmail.com
Counsel of Record for Petitioner

